TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  A More Strategic Approach Could Enhance
                     the Workers’ Compensation Program
                           Return-to-Work Efforts



                                          March 12, 2008

                               Reference Number: 2008-30-056




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             March 12, 2008


 MEMORANDUM FOR CHIEF HUMAN CAPITAL OFFICER


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – A More Strategic Approach Could Enhance the
                              Workers’ Compensation Program Return-to-Work Efforts
                              (Audit # 200630IE013)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) processing
 of workers’ compensation claims filed by employees. The overall objective of this review was to
 evaluate the effectiveness of the Workers’ Compensation Program administration in the IRS,
 with an emphasis on the progress made since 2003. The review was initiated at the request of
 the President’s Council on Integrity and Efficiency.

 Impact on the Taxpayer
 IRS cash outlays for workers’ compensation claims continue to increase, driven by such factors
 as cost-of-living increases and higher costs for medical equipment, medications, and treatment.
 These outlays represent financial obligations to care for injured employees and can be considered
 a cost of business. However, if costs are not properly managed and increase significantly,
 obligations could ultimately affect the amount of money the IRS has available to spend on
 enhancing the delivery of service to the taxpaying public.

 Synopsis
 Overall, the IRS has made notable progress in managing its Workers’ Compensation Program.
 Since 2003, the IRS has fully or partially implemented our prior recommendations1 for
 enhancing case management techniques, increasing the accuracy of performance measures, and

 1
  Improvements Are Needed in the Process and Information Used to Manage Workers’ Compensation Claims
 (Reference Number 2003-10-213, dated September 2003).
                        A More Strategic Approach Could Enhance the Workers’
                            Compensation Program Return-to-Work Efforts



holding IRS managers more accountable for reducing costs associated with workers’
compensation claims. While program management has improved, we believe additional steps
need to be taken in the Workers’ Compensation Center (WCC) and throughout the IRS to further
strengthen the Program.
In the WCC, control processes need to be established to ensure the IRS is not overpaying
workers’ compensation benefits. In 1996, the President’s Council on Integrity and Efficiency
issued a consolidated report on the Federal Employees’ Compensation Act (FECA)2 that
summarized the results of 13 audits conducted by participating Offices of Inspectors General.
The audits found substantial overpayments and millions of dollars in projected questionable
payments because agencies were not adequately reviewing their FECA chargeback cost reports.
During our review of IRS records and its 2006 chargeback report, we identified issues similar to
those surfaced by the President’s Council on Integrity and Efficiency in 1996. Specifically, we
questioned more than $1 million in charges that included benefits paid subsequent to Social
Security Administration records indicating claimants3 had died. In one instance, the
compensation payments continued for almost 2 years after the claimant’s death.
Agencywide, the IRS needs to ensure that required procedures are followed when claims are
initiated and to implement a more strategically oriented approach for returning employees to
work following an injury. Our review of case files associated with 40 claims found problems in
31 of the claim cases reviewed. For example, injury investigations were not thoroughly
conducted, and some questionable claims were not challenged while others were improperly
challenged.
Increasing from $1.4 billion in 1990 to nearly $2.4 billion in 2005, the cost of workers’
compensation has caused concern throughout the Federal Government. We analyzed practices,
(1) advocated and implemented by agencies we identified and, (2) recommended to us by
officials from the Department of Labor Office of Workers’ Compensation Programs (OWCP) as
particularly effective at controlling costs, and found three common strategies in their
return-to-work practices.4
First, return-to-work programs were established with policies, procedures, and processes that
stressed taking an organizational approach to finding productive activities for injured employees
by collaborating cross-functionally both inside and outside the agency. Second, proactive steps
were taken to establish an environment in which injured employees are expected to return to
work. Besides creating a pool of available light-duty and modified jobs,5 these steps included

2
  Ch. 458, 39 Stat. 742 (1916) (codified as amended in scattered sections of 1 U.S.C., 5 U.S.C., and 18 U.S.C.).
3
  A person who files a claim for a benefit, such as a claim for workers’ compensation.
4
  The specific agencies included the Department of Defense, the United States Postal Service, the Transportation
Security Administration, and the State of Ohio.
5
  Work in which the physical aspects of a job are adapted, altered, or removed to allow employees to perform the
essential job functions of a position.
                                                                                                                   2
                     A More Strategic Approach Could Enhance the Workers’
                         Compensation Program Return-to-Work Efforts



taking advantage of telecommuting opportunities and establishing early rehabilitation and
intervention activities using contract nurses. Third, goals and performance measures were
developed and used to measure the effectiveness of return-to-work efforts.
In contrast, the IRS’ return-to-work efforts are more reactive, less strategically oriented, and
heavily reliant on its first-line managers -who can have broad spans of control and many other
administrative demands on their time -to provide jobs commensurate with an employee’s skills
and medical limitations. Moreover, specific policies and procedures have yet to be implemented
to coordinate and collaborate across functional lines to assist in transitioning more injured
employees back to the workplace. Considering that one injured employee can easily cost an
agency more than $1 million if he or she does not return to work, even relatively small successes
in returning individuals to work can significantly reduce outlays for workers’ compensation
benefits.

Recommendations
To ensure that the IRS is not overpaying workers’ compensation benefits, the Chief Human
Capital Officer should develop and implement control processes for reviewing the accuracy of
costs in chargeback reports, obtain evidence to ensure that benefits are paid only to current or
former IRS employees, and seek reimbursement for the compensation paid subsequent to
claimants’ deaths and on denied claims. The Chief Human Capital Officer should also
coordinate with the Deputy Commissioner for Operations Support to implement a control to
provide assurances that required procedures are completed in the claim process and establish a
more strategic approach to enhance return-to-work efforts.

Response
The Chief Human Capital Officer agreed with our recommendations and outlined the actions the
IRS has taken or would take. These actions include implementing control processes for
reviewing the accuracy of the costs in chargeback reports, seeking reimbursement from the
OWCP for benefits paid subsequent to claimants’ deaths, enhancing the mandatory annual safety
briefing, and developing an instructional training compact disc for employees. The IRS will also
develop a policy with a goal of addressing cross-functional placement for injured workers and
enhance the efforts made by first-line managers and case management specialists with
return-to-work procedures. Management’s complete response to the draft report is included as
Appendix V.




                                                                                                   3
                     A More Strategic Approach Could Enhance the Workers’
                         Compensation Program Return-to-Work Efforts




Office of Audit Comment
We acknowledge the actions described above will provide assurance that workers’ compensation
benefits are paid to eligible IRS employees and their beneficiaries for claims made since the
centralization of the WCC. However, the IRS did not specifically agree or disagree to obtain
evidence, such as the originally filed claim documents, to ensure that all workers’ compensation
benefits are paid only to eligible IRS employees and their beneficiaries. We believe that, without
obtaining such evidence, the IRS will remain at risk of overpaying workers’ compensation
benefits for claims arising before the WCC centralization.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-8510.




                                                                                                4
                             A More Strategic Approach Could Enhance the Workers’
                                 Compensation Program Return-to-Work Efforts




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Has Made Notable Progress in Managing
          Its Workers’ Compensation Program............................................................Page 3
          Control Processes Need to Be Developed and Implemented to Ensure
          the Internal Revenue Service Is Not Overpaying Workers’ Compensation
          Benefits .........................................................................................................Page 6
                    Recommendations 1 and 2: ..............................................Page 7

                    Recommendation 3:........................................................Page 8

          Additional Steps Should Be Taken to Ensure Required Procedures
          Are Followed When Initiating Claims..........................................................Page 8
                    Recommendation 4:........................................................Page 10

          A More Strategic Approach for Returning Employees to Work
          Following an Injury Needs to Be Explored ..................................................Page 10
                    Recommendation 5:........................................................Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Workers’ Compensation Costs ............................................Page 19
          Appendix V – Management’s Response to the Draft Report .......................Page 21
        A More Strategic Approach Could Enhance the Workers’
            Compensation Program Return-to-Work Efforts




                    Abbreviations

FECA          Federal Employees’ Compensation Act
IRS           Internal Revenue Service
OWCP          Office of Workers’ Compensation Programs
SHARE         Safety, Health, and Return-to-Employment
SHIMS         Safety and Health Information Management System
WCC           Workers’ Compensation Center
                         A More Strategic Approach Could Enhance the Workers’
                             Compensation Program Return-to-Work Efforts




                                             Background

The Department of Labor Office of Workers’ Compensation Programs (OWCP) is responsible
for administering the Federal Employees’ Compensation Act (FECA).1 Enacted in 1916, with
substantial modifications over the years, the FECA is designed to provide nontaxable payments
to cover the lost wages, medical care, and survivors’ benefits of Federal Government employees
who are injured on the job. The FECA is
a major benefit program that affects the        The total Federal Government FECA benefit
budgets of all Federal Government                costs increased from $1.4 billion in 1990 to
agencies, and its rising costs are a                     nearly $2.4 billion in 2005.
concern throughout the Government. The
total Federal Government FECA benefit
costs increased from $1.4 billion in 1990 to nearly $2.4 billion in 2005.
The OWCP, which administers the Workers’ Compensation Program from 12 district offices
located throughout the country, is responsible for claim adjudication and payment of benefits.
However, the OWCP bills Federal Government agencies for the amount of benefits paid on
behalf of the agencies’ injured employees.2 These “chargeback billings” cover the 12-month
expense period of July 1 to June 30 each year, and agencies pay the expenses from their
appropriations or operating revenues.
Besides reimbursing the OWCP, Federal Government agencies have other responsibilities to
ensure that their employees are properly covered under the FECA. These other responsibilities
include ensuring that personnel understand the FECA, informing injured employees of their
rights and obligations, initiating the claim process with the OWCP, authorizing medical care, and
coordinating with the OWCP in monitoring the medical status of injured employees to help
determine if and when they can resume working.
Organizationally, the Internal Revenue Service (IRS) Workers’ Compensation Program is
located and managed from its Workers’ Compensation Center (WCC) in Richmond, Virginia.
The WCC serves as the IRS’ liaison with the OWCP and is responsible for controlling and
reviewing employee claims, coordinating with the OWCP in monitoring the status of injured
employees to help determine when they can return to work, and verifying the accuracy of
chargeback billings.

1
  Ch. 458, 39 Stat. 742 (1916) (codified as amended in scattered sections of 1 U.S.C., 5 U.S.C., and 18 U.S.C.).
2
  Agency bills can include the costs of compensation, rehabilitation, medical services, and/or death payments paid to
injured employees and their survivors.



                                                                                                             Page 1
                    A More Strategic Approach Could Enhance the Workers’
                        Compensation Program Return-to-Work Efforts



The WCC uses the Department of the Treasury Safety and Health Information Management
System (SHIMS) to process and control workers’ compensation claims. The SHIMS was
implemented on October 1, 2001, and was designed to replace the paper accident claim reporting
process with an electronic system that would allow claims to be submitted to the WCC and
OWCP quickly. In addition, the SHIMS is designed to enable the IRS to track its lost production
days and costs.
This review was performed at the IRS WCC in Richmond, Virginia, during the period June 2006
through July 2007. We conducted the review in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                        Page 2
                           A More Strategic Approach Could Enhance the Workers’
                               Compensation Program Return-to-Work Efforts




                                         Results of Review

The Internal Revenue Service Has Made Notable Progress in
Managing Its Workers’ Compensation Program
The IRS has improved the process and information used to manage its workers’ compensation
claims. Since 2003, the IRS has fully or partially implemented all eight of our prior
recommendations for enhancing case management techniques, increasing the accuracy of
performance measures, and holding IRS managers more accountable for reducing costs
associated with workers’ compensation claims.
To improve the case management of long-term disability cases, the IRS implemented our
recommendation to establish guidelines for reviewing older cases. In September 2003, the WCC
issued detailed instructions for its personnel on what and when steps should be taken in
managing claims in process for more than 1 year. The instructions included steps that should be
taken and documented in case files when assessing a claimant’s3 ability to return to work. The
instructions were subsequently incorporated into the WCC procedural guidelines that supplement
and expand on the instructions in the Internal Revenue Manual.
To increase the accuracy of performance measures, the IRS implemented our two
recommendations for increasing the reliability of its cost avoidance accomplishments. In
October 2003, the WCC revised how it calculated the accomplishments by properly accounting
for injured employees who returned to work and ensuring that the amounts claimed were the
result of specific actions taken by the WCC. Although we did not verify the accuracy of the
accomplishments claimed since our last review, we did find they are lower and the methodology
for calculating them is generally in line with those used by the other agencies we benchmarked.
To enhance case management techniques, the IRS implemented our four recommendations
related to using the SHIMS more effectively for managing key aspects of the claim process. For
example, we reported in 2003 that the WCC was not consistently populating data fields in the
SHIMS with information that would assist in monitoring the status and timeliness of key actions
in the claims process. Instead, the WCC relied on more cumbersome and error-prone manual
processes for monitoring. As summarized in Figure 1, we found a marked improvement in the
amount of information input to the data fields since 2003. According to WCC officials, the
additional information is enhancing their ability to use the SHIMS as a major analytical tool for
evaluating and controlling claim case activities.

3
    A claimant is a person who files a claim for a benefit, such as a claim for workers’ compensation.


                                                                                                         Page 3
                            A More Strategic Approach Could Enhance the Workers’
                                Compensation Program Return-to-Work Efforts



Figure 1: Comparison of Past and Current Use of Specific Fields in the SHIMS
       FIELDS IN THE SHIMS                        PAST USE4                           CURRENT USE5
    Assessment Code:                   Rarely used: Found 22 (2%)            Extensively used: Found
    Documents the specialist’s         uses out of 1,044 for cases tested.   2,827 (94%) uses out of 3,014 for
    initial assessment of the claim.                                         cases tested.
    Management Code: Gives             Rarely used: Found 16 (2%)            Extensively used: Found
    the current status of the case.    uses out of 1,044 for cases tested.    2,843 (94%) uses out of 3,014 for
                                                                             cases tested.
    Case File Number:                  Usually recorded: Found               Almost always recorded: Found
    References to the paper file       2,951 (95%) uses out of 3,109 for     2,991 (99%) uses out of 3,014 for
    stored in the WCC facility.        cases tested.                         cases tested.
Source: Improvements Are Needed in the Process and Information Used to Manage Workers’ Compensation
Claims (Reference Number 2003-10-213, dated September 2003) and a December 4, 2006, data extract from the
SHIMS.

To begin holding managers more accountable for reducing costs associated with claims, the IRS
partially implemented our recommendation to establish procedures for assigning workers’
compensation costs to its various business units. For example, the WCC implemented a process
that provides IRS executives a quarterly report outlining the workers’ compensation costs
associated with injured employees in their respective business units. While the report may be
increasing organizational awareness of the costs associated with injured employees, it does little
to hold the executives or managers in the various business units accountable for reducing them.
Besides acting on our recommendations, the IRS is making progress in carrying out its
responsibilities under the Governmentwide Safety, Health, and Return-to-Employment (SHARE)
initiative. The SHARE initiative was introduced in 2004 as a response to escalating workers’
compensation costs. Under the SHARE initiative, which is primarily aimed at newly filed
claims, Federal Government agencies are directed to (1) reduce claim rates, (2) increase the
timeliness of processing claims, (3) reduce the amount of time lost from work, and (4) reduce the
number of lost days.
While data are not available on the precise impact the initiative is having on reducing costs,
statistics from the Department of Labor, which are reproduced in Figure 2, show the IRS has
steadily improved in key areas under the SHARE initiative. Improvement in claims processing
time is particularly important because it is the initial step in a case management process designed
to reduce workers’ compensation costs by getting workers healthy and back to work as quickly
as possible. In Fiscal Year 2007, the Department of the Treasury, with significant contribution
by the IRS, was recognized by the Department of Labor for its performance in decreasing the

4
  As documented in our prior report Improvements Are Needed in the Process and Information Used to Manage
Workers’ Compensation Claims (Reference Number 2003-10-213, dated September 2003).
5
  We determined use for claims with costs in Chargeback Year 2006 based on data in the SHIMS as of
December 2006.
                                                                                                                  Page 4
                           A More Strategic Approach Could Enhance the Workers’
                               Compensation Program Return-to-Work Efforts



number of injuries and illnesses by more than any other Federal Government agency since the
Presidential SHARE initiative began in 2004.

                        Figure 2: SHARE Initiative Statistics for the IRS
                            (Fiscal Year 2003 Through March 2007)
                                       Fiscal Year    Fiscal Year    Fiscal Year   Fiscal Year   Fiscal Year
                                          20036          2004           2005          2006          20077
 Number of employees             104,945                102,112        103,805       98,547        92,902
 Total cases                       1,864                 1,583          1,400        1,204          635
 Total case rates                   1.78                  1.55           1.35         1.22          .68
 Total lost time cases             1,269                 1,137           942          781           437
 Total lost time case rate         1.21                  1.11            .91          .79           .47
 Lost work days                      36                    41             34           34            25
 Percentage of timely filed
 claims                            73%                   79%            82%           83%           87%
Source: Department of Labor OWCP statistics.

We also learned that in February 2005, the WCC independently initiated a quality review process
to evaluate adherence to selected procedures. The process involves reviewing a random sample
of claim cases and, according to WCC officials, has significantly improved claim management
practices. In the beginning, the quality review scores were below expectations. However, the
quality scores have increased and are currently around 90 percent or more.
While the IRS has made notable progress in improving its Workers’ Compensation Program, we
believe additional steps need to be taken within the WCC and throughout the IRS to further
strengthen the Program. Specifically, the WCC needs to develop control processes that ensure
that the IRS is not overpaying workers’ compensation benefits. Agencywide, the IRS needs to
ensure that required procedures are followed when claims are initiated and to implement a more
strategically oriented approach for returning employees to work following an injury.

Control Processes Need to Be Developed and Implemented to Ensure
the Internal Revenue Service Is Not Overpaying Workers’
Compensation Benefits
The Government Accountability Office Standards for Internal Control in the Federal
Government provides an overall framework for control processes that, in short, require
establishing policies, procedures, techniques, and mechanisms to ensure that actions are taken to
minimize risks. During the course of our review, WCC management readily acknowledged they
had not developed or implemented control processes for thoroughly reviewing the accuracy of

6
    Fiscal Year 2003 is the baseline year for the SHARE initiative measures.
7
    Figures reported for Fiscal Year 2007 are only through March 2007.

                                                                                                            Page 5
                     A More Strategic Approach Could Enhance the Workers’
                         Compensation Program Return-to-Work Efforts



the costs in the OWCP chargeback reports. The WCC instead heavily relies upon the OWCP to
ensure that the millions of dollars in benefits it pays on behalf of the IRS are accurate. However,
evidence from three sources clearly shows that, by not thoroughly reviewing the chargeback
reports, the IRS incurs considerable risk that it may be paying more for workers’ compensation
benefits than is necessary.
First, the OWCP recognizes that there can be errors in its chargeback billing process and has
long recommended that agency officials routinely review their chargeback reports to identify and
correct erroneous payments for compensation and medical benefits. Additionally, the OWCP
recommends that, when officials suspect erroneous payments have been made, they should check
current personnel and payroll records, as well as the service record file, and/or send an inquiry to
the Federal Records Center. Second, in 1996, the President’s Council on Integrity and
Efficiency issued a consolidated report on the FECA that summarized the results of 13 audits
conducted by participating Offices of Inspectors General. The report demonstrated that
substantial overpayments and millions of dollars in projected questionable payments were
identified because agencies were not adequately reviewing their FECA chargeback reports.
Third, issues similar to those surfaced by the President’s Council on Integrity and Efficiency in
1996 were identified during our review of IRS records and its 2006 chargeback report.
Specifically, we questioned whether the IRS should have been charged for:
•   Compensation payments and survivor benefits totaling approximately $1.3 million that were
    paid to 7 claimants and 27 beneficiaries (34 cases). In 22 of the 34 cases, we found no case
    files or any other documentation to support that the recipients were and continue to be
    eligible for the benefits. While files were maintained for the other 12 cases, we found key
    documents to verify prior IRS employment and monitor continued eligibility for workers’
    compensations benefits were missing. The information missing from the files included dates
    and description of employment with the IRS, dates and description of claimant’s injuries, and
    contact information for those receiving the benefits. Moreover, we found only 4 of the
    34 original claimants’ identification numbers listed in current or historical IRS payroll
    records.
•   Compensation payments of more than $75,000 that continued to be paid subsequent to
    3 claimants’ deaths. In one instance, the compensation payments continued for almost 2
    years after Social Security Administration records indicated the claimant had died. In
    addition, another claimant’s death payments were not adjusted to reflect the correct rate
    payable to a surviving spouse.
•   Medical expenses of approximately $12,700 that were paid for 3 employees after their claims
    had been denied by the OWCP.
As noted above, the majority of the questionable charges are attributable to missing or
insufficient documentation. According to WCC officials and our observations, this problem
largely stemmed from claims that originated before the IRS centralized its Workers’

                                                                                             Page 6
                    A More Strategic Approach Could Enhance the Workers’
                        Compensation Program Return-to-Work Efforts



Compensation Program under the WCC in 1994. Prior to establishment of the WCC, claims
were handled by IRS personnel located in geographically dispersed offices that may have
operated more informally and with less documentation because each office was responsible for
managing significantly fewer cases. However, we believe that, even with significantly fewer
cases to manage, the level of informality in operations that existed when the Workers’
Compensation Program was decentralized would still expose the IRS to risks that include
overpaying workers’ compensation benefits.

Recommendations
To ensure that the IRS is not overpaying workers’ compensation benefits, the Chief Human
Capital Officer should:
Recommendation 1: Develop and implement control processes for reviewing the accuracy of
costs in OWCP chargeback reports.
       Management’s Response: The Chief Human Capital Officer agreed with this
       recommendation. Control processes will be implemented to assure that, (1) any
       compensation or medical payments made after a claim has been made inactive are
       identified and, (2) actions are taken to validate or report any questionable charge, using
       routine exception reports generated from the SHIMS and the OWCP databases.
Recommendation 2: Obtain evidence, such as the originally filed claim documents, to ensure
that all workers’ compensation benefits are paid only to eligible current or former IRS employees
and their beneficiaries.
       Management’s Response: The Chief Human Capital Officer agreed with this
       recommendation and stated that corrective actions have been completed. Since the
       centralization of the WCC in 1994, each new claim received is verified to be from an IRS
       employee through the use of existing personnel databases, and this documentation is
       placed in case files.
       Office of Audit Comment: We acknowledge the actions described above provide
       assurance that workers’ compensation benefits are paid to eligible IRS employees and
       their beneficiaries for claims made since the centralization of the WCC. However, the
       IRS did not specifically agree or disagree to obtain evidence, such as the originally filed
       claim documents, to ensure that all workers’ compensation benefits are paid only to
       eligible IRS employees and their beneficiaries. We believe that, without obtaining such
       evidence, the IRS will remain at risk of overpaying workers’ compensation benefits for
       claims arising before the WCC centralization.




                                                                                            Page 7
                    A More Strategic Approach Could Enhance the Workers’
                        Compensation Program Return-to-Work Efforts



Recommendation 3: Seek reimbursement from the OWCP for the compensation paid
(1) subsequent to claimants’ deaths and, (2) to claimants whose claims were denied.
       Management’s Response: The Chief Human Capital Officer agreed with this
       recommendation and stated that corrective actions have been completed. The IRS
       followed up with the OWCP regarding the three cases for which compensation benefits
       were paid after the claimant had died and determined that, in two instances, the OWCP
       had begun the recovery process for the overpayments by contacting the bank into which
       the funds had been directly deposited. In the other instance, the IRS determined a spouse
       was appropriately receiving survivor benefits. With regard to the medical payments, the
       IRS did not find any inappropriate payments made subsequent to the denial of the
       medical claims but noted that occasionally payments are made after a claim denial for
       bills with dates of services predating the date on which the claim was denied.

Additional Steps Should Be Taken to Ensure Required Procedures
Are Followed When Initiating Claims
One of the objectives of the OWCP is to protect the interests of Federal Government employees
by encouraging the timely and accurate submission of claims for consideration. First-line
supervisors both within and outside the IRS are responsible for ensuring that this Government-
wide objective is achieved by initiating injury investigations immediately, authorizing medical
treatment promptly, informing injured employees of their rights and responsibilities, and
submitting properly completed claim forms to the OWCP within 10 days of receipt from the
injured employees.
To assist managers throughout the IRS in meeting their responsibilities, the WCC has focused
considerable efforts on developing and introducing products, such as a computer-based training
package and a standardized managerial checklist, intended to familiarize managers with and
provide details on the various procedures that should be completed to ensure that claims are
submitted properly and on time. Beyond these WCC efforts, the IRS should take additional steps
to better ensure that managers follow required procedures. We reviewed a judgmental sample of
case files associated with 40 claims and found 31 claim cases with 1 or more of the following
problems:
   1. Injury investigations were not thoroughly conducted (20 cases).
      Thorough and well-documented injury investigations are essential for substantiating or
      raising doubts about the validity of claims. Although this generally involves obtaining
      third-party witness statements and providing a detailed description of the time, place, and
      cause of the injury, we found these elements were often missing from case files.
   2. Injured employees were not advised of their rights and responsibilities (24 cases).
      By law, supervisors are required to promptly authorize an initial medical examination for
      an injured employee and ensure that he or she is aware of his or her rights and

                                                                                          Page 8
                       A More Strategic Approach Could Enhance the Workers’
                           Compensation Program Return-to-Work Efforts



        responsibilities. These requirements are further emphasized in both the Internal Revenue
        Manual and the national agreement between the IRS and the National Treasury
        Employees Union. Except for a few instances, we saw little evidence in the case files
        that injured employees were both promptly authorized for medical treatment and fully
        advised of their rights and responsibilities.
    3. Medical status reports were not used to request information from doctors (19 cases).
       Determining the extent of an employee’s injury and ability to return to work is central for
       assessing the validity of a claim and for making reasonable accommodations in
       accordance with work restrictions found medically necessary. Despite the important role
       the medical status reports have in the claim process, we found they were not routinely
       issued when an injury was reported.
    4. Questionable claims were not challenged or were improperly challenged (13 cases).
       Federal Government workers’ compensation regulations allow the IRS, as well as other
       agencies, to challenge a questionable claim and are an agency’s only opportunity to
       notify the OWCP of its disagreement with the claim. Because agencies have no appeal
       rights and are at risk of paying for illegitimate claims that are not challenged, supervisors
       must be knowledgeable of how and when to challenge claims.
As shown in our case reviews, many of the problems stemmed from the lack of documentation
indicating that required procedures were followed. Although we did not use statistically valid
sampling techniques in selecting the claim cases for review, we believe our results indicate this is
a nationwide concern. The claims came from a variety of IRS operational areas and were filed
over several years from different offices across the country.
During our review, we used several items listed on a standardized managerial checklist
introduced by the WCC in Fiscal Year 2002 to guide our evaluation of how well selected
procedures were followed. Managers can access the checklist online to get specific, step-by-step
instructions for each of the workers’ compensation procedures. While the checklist also provides
important references to answer procedural and process questions, we saw little evidence in the
cases we reviewed that it was used by managers.
As we have previously reported,8 the IRS has successfully designed and implemented mandatory
checklists in other program areas as a control to hold personnel accountable for ensuring that
required procedures and processes are completed. We believe that, if the WCC managerial
checklist is similarly mandated, it would provide a cost-effective control for resolving many of
the problems identified in our case reviews. Like other successfully mandated checklists in the
IRS, it would need to solicit signatures and dates from managers and employees certifying that
the actions were completed, and be included as a permanent part of claim case files.

8
 The Strategy to Reemphasize Penalties in Corporate Examinations Could Be Enhanced (Reference
Number 2005-30-123, dated August 2005).

                                                                                                Page 9
                     A More Strategic Approach Could Enhance the Workers’
                         Compensation Program Return-to-Work Efforts



Additionally, the use of the checklist would need to be evaluated and the results of the
evaluations shared agencywide, so that needed corrective actions, if any, could be identified and
addressed. We believe this could be accomplished by taking relatively simple steps requiring
minimal amounts of time and resources. As discussed earlier, the WCC already has in place a
quality review process that could be modified to include evaluating the use of the checklist.
Moreover, the IRS currently requires managers and employees to participate in an annual
briefing session on workplace safety and health issues. The annual briefing includes references
for reporting workplace injuries to the WCC and could be enhanced by sharing review results on
the use of the checklist and emphasizing the importance of following required procedures when
initiating claims.

Recommendation
Recommendation 4: The Chief Human Capital Officer should coordinate with the Deputy
Commissioner for Operations Support to implement a control to provide greater assurances that
required procedures are completed in the claim process by managers and employees throughout
the IRS.
       Management’s Response: The Chief Human Capital Officer agreed with this
       recommendation. The IRS will enhance the mandatory annual safety briefing and will
       develop an instructional training compact disc for employees that will complement the
       one available for managers.

A More Strategic Approach for Returning Employees to Work
Following an Injury Needs to Be Explored
Returning employees to work after an injury or occupational illness continues to present
management challenges for the IRS as well as other agencies. These challenges have, in part,
been attributed to the FECA itself. As the Government Accountability Office and others have
reported, the FECA provides injured employees with very generous benefits that critics believe
create an incentive for workers to continue receiving FECA benefits even though they may be
able to return to work. These benefits can include tax-free payments of up to 75 percent of
earnings that provide some employees with more net income while receiving workers’
compensation than when working. Moreover, there is no mandatory retirement age for
employees collecting FECA benefits. Consequently, those who, in effect, “retire on the FECA”
will generally receive greater amounts than career employees who retire normally.
Critics also point to the role the OWCP has in the process. By law, the OWCP is an advocate for
injured employees because it alone determines the validity of claims and when injured
employees are healthy enough to return to work, even though it has little, if any, financial
obligation if a claimant’s case is mismanaged. Because legislative actions to remove these
obstacles have been proposed but have not been acted on, agencies must establish effective

                                                                                         Page 10
                         A More Strategic Approach Could Enhance the Workers’
                             Compensation Program Return-to-Work Efforts



return-to-work practices for controlling workers’ compensation costs, considering that 1 injured
employee can easily cost an agency more than $1 million if he or she never returns to work.
We analyzed practices (1) advocated and implemented by agencies we identified and
(2) recommended to us by the OWCP as particularly effective at controlling costs and found
three common strategies in their return-to-work practices.9 First, return-to-work programs were
established with policies, procedures, and other processes that stressed taking an organizational
approach to finding productive activities for injured employees by collaborating
cross-functionally both within and outside the agency. In the Department of Defense, working
relationships were established with executives and managers in other agencies to identify,
evaluate, and deliver transitional work10 for the injured. The transitional work helped reduce
costs by gradually returning injured workers to the workplace in less physically or mentally
demanding positions than their regular jobs. During Fiscal Years 2005 through 2007,
491 recovering Department of Defense employees were reemployed, creating a projected
lifetime cost reduction of approximately $422 million.
Second, proactive steps were taken to establish an environment in which injured employees are
expected to return to work. Besides creating a pool of available light-duty and modified jobs,11
these steps included taking advantage of telecommuting opportunities and establishing early
rehabilitation and intervention activities using contract nurses. For example, the Transportation
Security Administration adopted a private industry nurse intervention program, which resulted in
a 33 percent reduction of absenteeism per injury.
Third, goals and performance measures, other than those required by the SHARE initiative, were
developed and used to measure the effectiveness of return-to-work efforts. As we have
previously reported, performance measures are critical for understanding what a program is
accomplishing and whether goals are being achieved. In short, they focus on results and are a
central aspect of the Government Performance and Results Act of 1993.12
In contrast, the IRS’ return-to-work efforts are more reactive, less strategically oriented, and
heavily reliant on its first-line managers -who can have broad spans of control and multiple other
administrative demands on their time -to provide jobs commensurate with an employee’s skills
and medical limitations. Moreover, specific policies and procedures have yet to be implemented
to coordinate and collaborate across functional lines to assist in transitioning more injured

9
  The specific agencies included the Department of Defense, the United States Postal Service, the Transportation
Security Administration, and the State of Ohio.
10
   Transitional work uses real job duties for a specified, limited time to help injured employees progress to their
original jobs, with the Department of Defense’s requirement that the transitional positions be integrated into the base
or installation workforce within a year.
11
   Work in which the physical aspects of a job are adapted, altered, or removed to allow employees to perform the
essential job functions of a position.
12
   Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).

                                                                                                             Page 11
                         A More Strategic Approach Could Enhance the Workers’
                             Compensation Program Return-to-Work Efforts



employees back to the workplace. The heavy reliance on first-line managers and the absence of
polices and procedures for working across organizational lines in the IRS diminishes
return-to-work efforts and can have a detrimental effect on both the IRS and injured employees,
as shown in the following excerpt from a 2006 letter from the OWCP to the WCC:
         This is to confirm the conversation with a manager in which he declined the opportunity
         to offer the above named employee modified employment. He was advised that all costs
         associated with rehabilitation effort as well as continued wage loss compensation at the
         total disability rate and medical costs will be billed back to your agency.
         The injured employees’ potential entitlement for wage loss compensation is
         approximately $1.3 million of your future appropriation, not counting the thousands
         spent on vocational rehabilitation. That is over a million dollars on just one case.
         You are losing a trained and valuable employee, who will have to accept that a career
         with your agency is over. We will be challenged with retraining and attempting to secure
         employment for this employee in a difficult labor market.
         The Department of [the] Treasury has expressed its concern about the rising costs
         associated with workers’ compensation. Commitments have been made by your national
         office to make every effort to provide partially disabled employees with modified work. It
         is unfortunate that you are unable to comply in this case. Hopefully this case is an
         exception.

Small successes in returning employees to work can significantly reduce
workers’ compensation program costs
IRS cash outlays for workers’ compensation claims continue to increase, driven by such factors
as cost-of-living increases and higher costs for medical equipment, medications, and treatment.
These outlays represent financial obligations to care for injured employees and can be considered
a cost of business. However, if the costs are not properly managed and they increase
significantly, obligations could ultimately affect the amount of money the IRS has available to
spend on enhancing the delivery of service to the taxpaying public.
In 2006, the IRS was charged almost $12 million for the compensation paid to 402 employees,
age 65 or under, on the periodic roll.13 If these employees remain on the periodic roll and do not
return to work, the IRS will incur approximately $59 million14 in charges over the next 5 years,
with the costs continuing to escalate in subsequent years. As illustrated in Figure 3, we estimate

13
   We determined that the 402 individuals filed 404 workers’ compensation claims. We determined their age as of
June 30, 2006. Employees on the periodic roll have disabilities or injuries that have lasted or are expected to last for
prolonged periods (more than 1 year).
14
   We calculated $59 million by multiplying the compensation costs paid in Chargeback Year 2006 on 404 claims
filed by 402 employees age 65 or under on the periodic roll by five.


                                                                                                              Page 12
                         A More Strategic Approach Could Enhance the Workers’
                             Compensation Program Return-to-Work Efforts



the IRS will pay approximately $173 million15 in compensation for the 402 injured employees by
the time they reach age 70 and about $231 million16 in compensation by age 75.
               Figure 3: Chargeback Costs Continually Increase Over Time

             Compensation Costs Paid to 402 Employees Age 65 or Under on the Periodic Roll in
                        Chargeback Year 2006 (Actual), 5 Years Forward, at Age 70, and at Age 75
          Millions
          $250
                                                                                               $231
           $200
                                                                       $173
           $150

           $100
                                            $59
            $50
                      $12
              $0
                   2006                    5 Years                     Age 70                    Age 75

     Source: IRS chargeback costs for 2006, with our estimated future costs.17

Many workers’ compensation program managers and others in the field, such as those who
provide worker rehabilitation services, believe the longer an individual remains away from work
the more challenging it will be for him or her to return to work. Despite the challenges, effective
return-to-work strategies, such as those discussed in this report, may provide the IRS with
opportunities to return more individuals to productive activity in the workplace, while at the
same time reducing its workers’ compensation costs. According to cost avoidance formulas for
periodic roll cases used in some Federal Workers’ Compensation Programs,18 we estimate that,

15
   We calculated $173 million by multiplying the number of years until an employee reaches age 70 for the
404 claims by the compensation paid on each claim in Chargeback Year 2006.
16
   We calculated $231 million by multiplying the number of years until an employee reaches age 75 for the
404 claims by the compensation paid on each claim in Chargeback Year 2006.
17
   Actual and estimated future costs are rounded. The estimated future costs do not take into account inflation.
18
   For example, the United States Postal Service calculates cost avoidance by multiplying an individual’s annual
compensation while on the periodic roll by the difference in years when removed from workers’ compensation from
a life expectancy of age 70. The Department of Defense has a variation of this formula, using a life expectancy of
age 75, and adds an inflation factor to the calculation.

                                                                                                         Page 13
                        A More Strategic Approach Could Enhance the Workers’
                            Compensation Program Return-to-Work Efforts



even if the IRS finds productive activity for only 10 percent of the 402 employees not over age
65 who currently are on the Department of Labor’s periodic roll, its lifetime benefit outlays
would be reduced by more than $23 million.19

Recommendation
Recommendation 5: The Chief Human Capital Officer should coordinate with the Deputy
Commissioner for Operations Support to develop and establish a more strategic approach to
enhance return-to-work efforts that includes specific policies and procedures for working across
functional areas to transition injured employees into productive activities in the workplace.
        Management’s Response: The Chief Human Capital Officer agreed with this
        recommendation, stating that the support and commitment by top leadership is essential.
        The WCC will develop a proposed policy with a goal of addressing cross-functional
        placement for injured workers and enhance the efforts made by first-line managers and
        case management specialists with return-to-work procedures.




19
  We multiplied the future compensation costs of $231 million that we estimate the IRS will pay when the
402 employees reach age 75 by 10 percent.
                                                                                                           Page 14
                        A More Strategic Approach Could Enhance the Workers’
                            Compensation Program Return-to-Work Efforts



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the effectiveness of the Workers’
Compensation Program administration in the IRS, with an emphasis on the progress made since
2003. During the review, we relied on databases provided by the IRS. Although we did not
audit to determine the accuracy and reliability of the information in any of the databases, we
checked the reasonableness of our results against source documents. Our checks are described
below and did not identify any material errors in the information used from the databases. To
accomplish our objective, we:
I.      Reviewed a significant amount of source material to gain an understanding of workers’
        compensation claims and benefits. These sources included the FECA;1 publications and
        guidance issued by the Department of Labor OWCP; published research and reports on
        workers’ compensation; and the IRS Internal Revenue Manual, guidance documents, and
        training materials.
II.     Evaluated the progress made in implementing the agreed-upon recommendations from
        the Treasury Inspector General for Tax Administration’s 2003 report.2
III.    Identified key fields on the SHIMS3 that the IRS uses to monitor its WCC activities and
        compared the information to source documents to ensure the data we used from the
        system were reasonable and complete.
IV.     Reviewed a judgmental sample of 40 of the 20,782 workers’ compensation claims listed
        on the SHIMS through December 4, 2006, to determine whether required procedures
        were followed. We used judgmental sampling techniques to conserve time and resources.
        We validated the computer data by reconciling the supporting documentation for the
        40 workers’ compensation claims to data on the SHIMS.
V.      Used the Government Accountability Office Standards for Internal Control in the
        Federal Government to assess the policies, mechanisms, procedures, and techniques
        (management controls) the IRS established for its Workers’ Compensation Program.


1
  Ch. 458, 39 Stat. 742 (1916) (codified as amended in scattered sections of 1 U.S.C., 5 U.S.C., and 18 U.S.C.).
2
  Improvements Are Needed in the Process and Information Used to Manage Workers’ Compensation Claims
(Reference Number 2003-10-213, dated September 2003).
3
  The IRS uses the Department of the Treasury SHIMS to process and control workers’ compensation claims. The
SHIMS was implemented on October 1, 2001, and was designed to replace the paper accident claim reporting
process with an electronic system that would allow claims to be submitted to the WCC and OWCP quickly. In
addition, the SHIMS is designed to enable the IRS to track its lost production days and costs.
                                                                                                         Page 15
                        A More Strategic Approach Could Enhance the Workers’
                            Compensation Program Return-to-Work Efforts



VI.     Evaluated the successes the IRS had achieved in implementing the SHARE initiative.4
VII.    Reviewed the July 1, 2005, to June 30, 2006, Chargeback Report to verify the validity
        and accuracy of the costs charged to the IRS by the OWCP for compensation and medical
        expenses.
VIII.   Compared and contrasted IRS return-to-work practices to those used by the Department
        of Defense, the United States Postal Service, the Transportation Security Administration,
        and the State of Ohio.




4
 The SHARE initiative was introduced in 2004 as a response to escalating workers’ compensation costs. Under the
SHARE initiative, which is primarily aimed at newly filed claims, Federal Government agencies are directed to
(1) reduce claim rates, (2) increase the timeliness of processing claims, (3) reduce the amount of time lost from
work, and (4) reduce the number of lost days.
                                                                                                        Page 16
                    A More Strategic Approach Could Enhance the Workers’
                        Compensation Program Return-to-Work Efforts



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Frank Dunleavy, Director
Philip Shropshire, Director
Robert Jenness, Acting Audit Manager
Gwendolyn Gilboy, Lead Auditor
Earl Charles Burney, Senior Auditor
William Tran, Senior Auditor
Ali Vaezazizi, Auditor




                                                                                      Page 17
                   A More Strategic Approach Could Enhance the Workers’
                       Compensation Program Return-to-Work Efforts



                                                                        Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Human Capital Officer OS:HC
Director, Workforce Progression and Management OS:HC:WPM
Deputy Director, Workforce Progression and Management OS:HC:WPM
Associate Director, Centralized Activities OS:HC:WPM:CA
Chief, Workers’ Compensation Center OS:HC:WPM:CA:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Acting Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief Human Capital Officer OS:HC




                                                                              Page 18
                           A More Strategic Approach Could Enhance the Workers’
                               Compensation Program Return-to-Work Efforts



                                                                                                     Appendix IV

                           Workers’ Compensation Costs

For Chargeback Years 1994 through 2006, the IRS workers’ compensation costs totaled more
than $462 million. As shown in Figure 1, the yearly workers’ compensation costs rose from less
than $36 million in 1994 to more than $42 million in 2006.
                 Figure 1: IRS Workers’ Compensation Chargeback Costs for
                               Chargeback Years 1994 – 2006




                   1994    1995    1996    1997    1999    2000    2001    2002    2003    2004    2005    2006
    Medical        $10.1   $9.9    $8.8    $8.2    $8.1    $8.4    $8.9    $10.2   $9.9    $9.3    $9.9    $9.6
    Compensation $25.8     $27.3   $26.9   $27.1   $27.9   $28.5   $29.6   $30.7   $31.0   $31.8   $31.0   $33.1
    Total          $35.9   $37.2   $35.7   $35.3   $36.0   $36.9   $38.5   $40.9   $40.9   $41.1   $40.9   $42.7

Source: 1994 – 20061 chargeback costs provided by the IRS WCC.2




1
    Costs for Chargeback Year 1998 were not available.
2
    Total represents the sum of medical and compensation costs.
                                                                                                                   Page 19
                        A More Strategic Approach Could Enhance the Workers’
                            Compensation Program Return-to-Work Efforts



Figure 2 graphically illustrates the importance of implementing effective return-to-work
strategies and practices. The IRS paid cumulative benefits of about $374 million for the
3,807 individuals3 it had on the workers’ compensation rolls through early December 2006.
Medical expenses comprised almost one-fourth of the total costs in Chargeback Year 2006, with
compensation benefits accounting for the remainder. However, the cumulative compensation
payments comprise an even larger percentage of the total costs, making up about 82 percent of
the $374 million the IRS has paid.
   Figure 2: Medical, Compensation, and Total4 Costs for 4,018 IRS Workers’
Compensation Claims in Chargeback Year 2006, and the Cumulative Costs for the
                      Same Claims As of December 2006

    Millions
     $400
                                                                                               $374
     $350
                                                                                $307
     $300

     $250

     $200

     $150

     $100
                                                                 $67
                                  $33              $43
      $50
                  $10
       $0
                MEDICAL       COMPENSATION        TOTAL        MEDICAL      COMPENSATION       TOTAL

               COSTS OF 4,018 CLAIMS IN CHARGEBACK YEAR 2006    CUMULATIVE COSTS OF SAME CLAIMS AS OF
                                                                            DECEMBER 2006



Source: July 1, 2005, to June 30, 2006, IRS Chargeback Report and SHIMS data, as of December 4, 2006.




3
  The 4,018 workers’ compensation claims on the 2006 Chargeback Report were attributable to 3,807 employees.
The 2006 Chargeback Report had 4,022 workers’ compensation claims. However, SHIMS data were available for
only 4,018 (over 99 percent) of the 4,022 claims.
4
  Total represents the sum of medical and compensation costs.
                                                                                                        Page 20
      A More Strategic Approach Could Enhance the Workers’
          Compensation Program Return-to-Work Efforts



                                                  Appendix V

Management’s Response to the Draft Report




                                                         Page 21
A More Strategic Approach Could Enhance the Workers’
    Compensation Program Return-to-Work Efforts




                                                   Page 22
A More Strategic Approach Could Enhance the Workers’
    Compensation Program Return-to-Work Efforts




                                                   Page 23
A More Strategic Approach Could Enhance the Workers’
    Compensation Program Return-to-Work Efforts




                                                   Page 24
